Audit Report




OIG-06-024
Management Letter for Fiscal Year 2005 Audit of the Treasury
Forfeiture Fund’s Financial Statements


January 26, 2006




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             January 26, 2006



            MEMORANDUM FOR ERIC E. HAMPLE, DIRECTOR
                           TREASURY FORFEITURE FUND

            FROM:                 William H. Pugh,
                                  Deputy Assistant Inspector General
                                   for Financial Management and Information
                                   Technology Audits

            SUBJECT:              Management Letter for Fiscal Year 2005 Audit of the
                                  Treasury Forfeiture Fund’s Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Treasury Forfeiture Fund’s (TFF) Fiscal Year (FY) 2005 financial
            statements. We contracted with the independent certified public accounting firm
            Gardiner, Kamya & Associates, PC (GKA) to audit TFF’s financial statements for
            FY 2005. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office of
            Management and Budget Bulletin No. 01-02, Audit Requirements for Federal
            Financial Statements; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, GKA issued and is responsible for the accompanying
            management letter that discusses a certain matter that was identified during the
            audit, which was not required to be included in the audit reports.

            In connection with the contract, we reviewed GKA’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where GKA did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5400, or a member
            of your staff may contact Mike Fitzgerald, Director, Financial Audits at
            (202) 927-5789.

            Attachment
                MANAGEMENT LETTER
            COMMENT AND RECOMMENDATIONS
__________________________________________________________________________
                      TREASURY FORFEITURE FUND
           MANAGEMENT LETTER COMMENT AND RECOMMENDATIONS

                                Year Ended September 30, 2005

Untimely and Incorrect Submission of Certain Agency Reimbursement Transactions to
the Fund

Condition

The Fund’s expenses are either paid on a reimbursement basis or paid directly on behalf of a
participating bureau. Reimbursable expenses are incurred by the respective bureaus participating in
the Fund against their appropriation and then submitted to the Fund for reimbursement. There were
notable delays in submitting obligating documents and related reimbursement billings to the Fund
from Internal Revenue Service - Criminal Investigation (IRS-CI). For the year ended September 30,
2005, from a total of $30,722,714 obligated against four financial plan line items, $15,161,825 or
49% was submitted to the Fund on September 26, 2005.

Additionally, estimated amounts of $500,000 of reimbursement requests submitted to the Fund for
payment in May and September were not based on certified expenditures but on obligations.

Criteria

The Memorandum of Understanding (MOU) between the Fund and IRS stipulates that
reimbursement requests should be submitted as frequently as once each month and that each
reimbursement request constitutes a certification by IRS that funds were utilized for authorized
purposes. The MOU also stipulates that cumulative spending in each subcategory should not exceed
the limits of the financial plan.

The Secretary of the Treasury’s Guidelines for Seized and Forfeited Property requires all payments
from the Fund to be based upon certification of actual expenditures by the requesting Treasury law
enforcement organization. Payments are not to be made based upon estimated obligations.

Cause

Even though IRS-CI incurred certain expenses including travel expenses through out the year, they
were brought to the attention of the office responsible for billing the Fund in mid September.

IRS-CI based the erroneous billing on contract amounts instead of actual billings and in certain
cases, on advances to its vendors toward certain purchases including the payment of rent. Budget
funding from the Fund supported these advances. IRS-CI erroneously treated these advances as
reimbursable expenses from the Fund even though expense recognition had not occurred.

Effect

Delays in submitting agency reimbursement requests to the Fund can affect the reporting
responsibilities of the Fund including timely and accurate reporting and compliance with Treasury,
the Comptroller General and the Office of Management and Budget (OMB) regulations and


                                                 3
                     TREASURY FORFEITURE FUND
          MANAGEMENT LETTER COMMENT AND RECOMMENDATIONS

                                 Year Ended September 30, 2005

reporting requirements. It also impacts on the effective and efficient management of the program.

Reimbursements based on obligations and incorrect claim line representations may cause incorrect
accounting of the disbursements of funds. The Treasury Executive Office for Asset Forfeiture
(TEOAF) may disburse funds for transactions for which it is not liable, causing financial loss to the
Fund.

Recommendation

We recommend the following:

(1)     Fund Management continues to work with performing partners to improve the accounting,
        billing, and reporting process for reimbursable transactions.

(2)     Performing partners should endeavor to submit bills for reimbursable transactions in a
        timely manner so as to facilitate efficient and effective accounting for the Fund.

Management Response

Fund Management concurs with GKA’s findings and recommendations pertaining to the IRS-CI’s
billing submissions and the isolated billing errors. IRS-CI has made numerous attempts during the
past few years to provide timely billing submissions however we recognize that those efforts were
not fully successful.

IRS-CI has reviewed their processes and have determined that they can meet the monthly
submission requirement. IRS-CI will continue to work with performing partners implementing
safeguards to improve the accounting, billing, and reporting process for reimbursable transactions.

IRS-CI has established rigid timelines and reporting requirements on the project managers field
offices and procurement officials to assure that all information is available to prepare the TEOAF
monthly submissions. The process will be monitored by the executive staff.

The verification of qualifying expenses has been centralized within the Warrants and Forfeiture
Section. The Warrants and Forfeiture Section will collect all asset forfeiture related financial
information from the field offices, program managers and procurement officers. The collected
information will be matched to computerized accounting information to verify payment and receipt
of services. Warrants and Forfeitures will be responsible for all aspects of the billing submissions
to TEAOF and the Director of Warrants and Forfeitures will certify accuracy.




                                                  4
